Supreme Court, U.S.
FILED

AUG 2 2 2020
No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
;

i

:
i
i

TIMOTHY RONALD HARE
(Your Name)

— PETITIONER

vs.
PEOPLE OF THE STATE OF MICHIGAN — RFSPnNnFNiT(ft)
;
;

ON PETITION FOR A WRIT OF CERTIORARI TO

MICHIGAN SUPREME COURT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
:

TIMOTHY RONAIII HARF
(Your Name)

:

MDOC// 981251

Saginaw Correctional Facility (Address)

Pierre

Freeland. MI 48625
(City, State, Zip Code) /—\

;
i

N/A
(Phone Number)

vr/

Hi,

rh

:
i

:

:

QUESTION(S) PRESENTED
i

I. Does the requirement to prove prejudice under this Court's previous
: decision in Latter v Cooper,; place a burden on the accused that this Court
deemed unnecessary in United States v Cronic, when an attorney is "totally
absent" from a critical stage of the proceedings?
II. Does this Court's previous decision in Latter v Cooper, and United States
' v Cronic, contradict each other in such a way as to create a vacuum of
constitutional magnitude that is capable of repetition, yet evading
review?
:

!

i

T‘

.

Ill. Because this Court has previously deemed our system to be a system of plea
bargains, as opposed to a system of trials, and therefore concluding that
the plea process is almost always a critical stage, does the Sixth
Amenchient right to effective assistance require counsel to inform his
client of any and all plea agreements offered by the prosecutor, including
, those offers that the trial court may refuse to accept, for the reason
that the failure to do so would ultimately deny the accused of the entire
critical stage of plea negotiations, that the prosecutor, who by making
such an offer, has demonstrated a willingness to participate in?

i
!

i

I
;
i

;

i

:

LIST OF PARTIES

;

All parties appear in the caption of the case on the cover page.
!
!

i

[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
;
petition is as follows:

i

;

RELATED CASES
i
i

;

j

;i

!
!

;
;
:
I

!

!

:

TABLE OF CONTENTS
;

!

;

1

OPINIONS BELOW
!

JURISDICTION

2

:

!
! '
!
!

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

7

CONCLUSION

10

!

INDEX TO APPENDICES
i

APPENDIX A

Decision of! Michigan Supreme Court

APPENDIX B

Decision of Michigan Court of Appeals

APPENDIX C

Decision of State Trial Court

APPENDIX D

Origional Plea Agreement

APPENDIX E

Decision of Michigan Supreme Court

:

:

i

:

APPENDIX F
!
■

I

;

:
i

:

!

;

i

;

!

i

;
;

:

TABLE OF AUTHORITIES CITED
!

:
i

!

i

;

CASES

PAGE NUMBER

Lafler v Cooper, 566 U.S. 156; 152 S. Ct. 1576 (2012)
Mickens v Taylor, 555 U.S. 162, 166 (2002)
Missouri v Fry, 182 L. Ed. 2d 579; 152 S. Ct. 1599 (2012)
Brecht v Abrahanson, 507 U.S. 619; 115 S. Ct. 1710 (1995)
Strickland v Washington, 466 U.S. 668 (1984)
United Staes v Cronic, 466 U.S. 648; 104 S. Ct. 2059

STATUTES AND RULES
MCR 6.500 et seq,

i

i

:•
i

:
•;

i

;

i

!

OTHER
:

!
:

;
i

;!

!

5, 7, 8
7
8
8
5, 7
7, 8

;

i

IN THE

SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
i

OPINIONS BELOW
[ ] For cases from federal courts:

!
!

,

The opinion of the United States court of appeals appears at Appendix
the petition and is
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

i

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
DC3 For cases from state courts:

i

i

;
I

I

!

The opinion of the highest state court to review the merits appears at
Appendix_A__ to the petition and is
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
|X>$ is unpublished.
The opinion of the Saginaw Countv Trial
court
appears at Appendix_£__ to the petition and is
[ ] reported at________ ■________________:____
; or,
[ ] has been designated for publication but is not yet reported; or,
[XX is unpublished.
!

i

1.

to

to

;

JURISDICTION
!

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was________________ :_____ _
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: _______ _
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
■
(date) on
(date)
in Application No. _A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on .which the highest state court decided my case was 6/17/20
A copy of that decision appears at Appendix A
.
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
i-

!

:

[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

j

:

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
:
!
:

;

U.S. Const, amend. V, VI, XIV

s

V - Due Process
VI - Effective Assistance of Counsel
XIV - Due Process

i

;
;

;

:
:

;

i
i

;

!

i

!
i

;
i

3.
:
j

!

STATEMENT OF THE CASE
Defense attorney, William D. White, was appointed by the State of Michigan to
represent the Petitioner on October 21, 2015. Petitioner, who was facing a mandatory
rnininmm sentence of twenty-five years, was ultimately convicted by a jury on May 16,
2016, in the Tenth Judicial Circuit Court for the County of Saginaw, in the State of
Michigan. On June 27, 2016, he was sentenced to concurrent terms of eight - fifteen
years and twenty-five - fifty years. He is currently serving that sentence in the
military veterans unit at the Saginaw Correctional Facility in Freeland, Michigan.
On July 12, 2015, attorney Gary D. Strauss was appointed to represent the
Petitioner on direct appeal. The Petitioner's timely filed direct appeal was denied
by the Michigan Court of Appeals on October 12, 2017, with Leave to Appeal being
denied by the Michigan Supreme Court on April 3, 2018. After the Petitioner's direct
appeal had concluded, in preparation for the filing of his federal habeas corpus, he
sent letters to both attorneys requesting that they provide him the complete
case/work files that had been created during their representation of the Petitioner.
Attorney White responded with a letter stating that all such files had been
destroyed in a flood. Attorney Strauss responded by providing the Petitioner with
the entire contents of his case/work file. Included within that file was a plea
agreement from the Saginaw County Prosecutor, dated December 9, 2015. The agreement
stated, "Defendant shall plead • • « with agreed upon guidelines of 81 - 135 and all
remaining counts would be dismissed. People would agree that the sentences would run
concurrent and the Court should stay within the guidelines. This would avoid the
mandatory mininun of 25 years on Counts 3 & 4." (Emphasis included in original
docunent) (See Appendix D) The Petitioner was never informed of this formal plea
offer.
As opposed to seeking relief through federal habeas corpus, or by seeking
certiorari in this Court, the Petitioner returned to the Saginaw County Trial Court
4.

for post-conviction relief under a Motion for Relief From Judgment pursuant to MCR
6.500 et seq. That motion presented only two questions:
I. WAS THE DEFENDANT DENIED HIS SIXTH AND FOURTEENTH AMENDMENT
RIGHTS TO THE EFFECTIVE ASSISTANCE OF COUNSEL WHEN HIS COURT
APPOINTED ATTORNEY FAILED TO INFORM HIM OF A PLEA BARGAIN THAT
HAD BEEN PRESENTED BY THE PROSECUTOR?
II. WAS THE DEFENDANT DENIED HIS SIXTH AND FOURTEENTH AMENDMENT
RIGHTS TO EFFECTIVE ASSISTANCE OF APPELLATE COUNSEL WHEN HIS
COURT APPOINTED APPELLATE ATTORNEY FAILED TO RAISE A "DEAD BANG
WINNER" ON DIRECT APPEAL?
In support of that motion, Petitioner attached: the original plea agreement
printed on the prosecutor's stationary; a copy of the detailed invoice attorney
White submitted to the State of Michigan for compensation for his representation of
the Petitioner, and a sworn affidavit from the Petitioner that stated he had never
been informed of the plea offer, and that had he known about it, he would have
absolutely accepted it.
The trial court ultimately denied the motion after determining that it would
not have accepted the plea agreement even if the Petitioner would have agreed to it.
In making its decision, the Court relied on the holdings of Lafler v Cooper, 566
U.S. 156; 152 S. Ct. 1576; 182 L. Ed. 2d 598 (2012), and Strickland v Washington,
466 U.S. 668 (1984). More specifically, the Court decided that the Petitioner was
unable to satisfy the four elements outlined in Lafler, that are required to prove
the prejudice prong of Strickland, as applied to claims of ineffective assistance of
counsel involving the plea process. (See Appendix 0
A delayed Application for Leave to Appeal was filed in the Michigan Court of
Appeals on May 22, 2019, with a dissenting Opinion from Judge Michael J. Kelly, who
would have "remandted] the matter to the trial court for an evidentiary hearing and

5.

decision on whether the defendant was denied the effective assistance of counsel."
(See Appendix B)
On November 26, 2019, the Michigan Supreme Court responded to the timely filed
Application for Leave to Appeal by Ordering the Saginaw County Prosecutor to answer
the Application. After receiving that Answer, the Court denied the Application on
June 17, 2020. (See Appendix A) It is that denial by the Michigan Supreme Court that
this Petitioner now submits to this Honorable Court for review.

6.

REASONS FOR GRANTING THE PETITION
Petitioner contends that this Petition is of national importance, as it
presents an issue of Constitutional magnitude created by the vacuum formed by two
conflicting Supreme Court Decisions, which make this issue capable of repetition yet
evading review.
In deciding the case at bar, the state courts relied upon this Court's decision
in Lafler v Cooper, 566 U.S. 156; 152 S. Ct. 1576; 182 L. Ed. 2d 598 ( 2012).
However, Petitioner contends that the decision issued by the Lafler Court, is in
direct contradiction of another decision issued by this Court - United States v
Cronic, 466 U.S. 648; 104 S. Ct. 2059, which mandates relief to be granted in this
instance.
In Lafler, this Court concluded that the "performance" prong of Strickland v
■ ' Washington, 466 U.S. 668 (1984), was presuned satisfied by a defense attorney's
failure to advise his or her client of a plea agreement that had been formally
presented by the prosecutor. However, the Court went on to find that before a
defendant could prevail on a claim of ineffective assistance of counsel, as it
related to the plea prxess, the defendant must still prove the remaining
"prejudice" prong of Strickland. The Court then outlined o four-part test for doing
so. Petitioner believes that it is this requirement of proving "prejudice" under
Lafler, that is in direct contradiction to the holding of Cronic.
This Court has routinely found constitutional error without any specific
showing of prejudice to a defendant when counsel is either totally absent, or
prevented from assisting the accused during a critical stage of the proceedings.
United States v Cronic, 466 U.S. 648, 659, n.25; 104 S. Ct. 2059; See also Mickens v
Taylor, 555 U.S. 162, 166 ( 2002) (prejudiced presumed when assistance of counsel
"denied entirely or during a critical stage of the proceeding.")
7.

The reality is that plea bargains have become so central to the administration
of the criminal justice system that defense counsel have responsibilities in the
plea process, responsibilities that must be met to render the adequate assistance of
counsel that the Sixth Amendment requires in the criminal process at critical
stages. Because ours "is for the most part a system of pleas, not a system of
trials," Lafler, post, at 1388, 132 S. Ct. 1376, it is insufficient simply to point
to the guarantee of a fair trial as a backstop that inoculates any errors in the
pretrial process. ... In today's criminal justice system, therefore, the negotiation
of a plea bargain, rather than the unfolding of a trial, is almost always the
critical point for a defendant. Missouri v Fry, U.S. _; 182 L. Ed. 2d 379; 132
S. Ct. 1399 (2012).
;
In the case at hand, where the Petitioner's attorney failed to advise him of a
plea agreement that would have allowed for a seventy-three percent reduction in his
sentence, even if the Court would not have accepted the agreement as required under
Lafler, it is more likely than not that the outcome of the proceedings would have
been different, as the two parties had already shown a willingness to negotiate, and
would have merely returned to the negotiation process. But because the attorney
failed to advise the Petitioner of the offer, which specifically stated that the
prosecutor was willing to entertain counter-offers, the Petitioner was denied
complete access to a "critical [stage]" of the process. The attorney's actions had a
"substantial and injuries effect" on the outcome of the proceedings. Brecht v
Abrahamson, 507 U.S. 619, 631; 123 L. Ed. 2d 353; 113 S. Ct. 1710 (1993).
It is for the above forgoing reason this Petitioner respectfully asks this
-Honorable Court to consider that when a defense attorney fails to advise his client
of a plea offer, prejudice should be presumed under Cronic, without the burden of
proving prejudice under Lafler, as the attorney has, without any knowledge of his
client, successfully impeded the entire plea process from occurring. When this

8.

occurs, the actions of the attorney amounts to an attorney being "totally absent,"
and prejudice should be presumed.
The Petitioner in this instance would have fared much better in this case had
he been acting in pro se, as the prosecutor would have served the plea offer
directly upon him. As it stands, having an attorney in this instance actually harmed
the Petitioner.

9.

!

1

I

;
;

:

CONCLUSION

1

The petition for a writ of certiorari should be granted.

Respectfully submitted, :
:

Date:
i

i

:

1

'

10.
i

I

\

